T,

$*

O'

- >•,
:

IN THE
SUPREME COURT OF THE UNITED STATES

1

NO.

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.

ON PETITION FOR WRIT FOR CERTIORARI
TO REVIEW THE USCA8 CASE NO! 20-3473 IN
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:16-CV-4174 (PAM/HBD

t

)

APPENDIX
Pages
Judgment of the U.S. Eighth Circuit Court of Appeals
Orders of the U.S. Eighth Circuit Court of Appeals ....

1-1
2-3

j

i .

'

Appendix - 0

A

*' -H

U„ IM _J>

UNITED STATES COURTS OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3473
Emem Ufot Udolr
k

Petitioner - Appellant
v.
Becky Dooley, Warden, Moose Lake
Respondent - Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-04174-PAM)
ORDER
Appellant’s motion to file an untimely petition for rehearing is denied. The petition
for rehearing en banc is denied as untimely. The petition for rehearing by die panel is also
denied as untimely.
Judge Stras did not participate in die consideration or decision of diis matter.

February 1, 2021
Order Entered At die Direction of die Court
Clerk, U.S. Court of Appeals, Eighdi Circuit

Appendix - 2

Jr

UNITED STATES COURTS OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3473
Emem Ufot Udoh
Petitioner - Appellant
v.
Becky Dooley, Warden, Moose Lake
Respondent - Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-04174-PAM)
CORRECTED ORDER
The motion for leave to file an untimely petition for rehearing is denied. The
petition for rehearing is denied as untimely filed.

February 3, 2021
Order Entered At the Direction of the Court
Clerk, U.S. Court of Appeals, Eighth Circuit

Appendix - 3

CASE 0:16-cv-04174-PAM-HB Doc.88 Filed 10/29/20 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Emem Ufot Udoh,

Case No. 16cv4174 (PAM/HB)
Petitioner,
ORDER

v.

Becky Dooley, Warden,
Respondent.
This matter is before the Court on Petitioner Emem Ufot Udoh’s Emergency Motion
for Release. Udoh contends that the Court should release him pending his two federal
appeals because of the presence of COVID-19 in his state prison facility.
Udoh offers no legal authority allowing a federal court to order the compassionate
release of a state prisoner, and the Court has found none. Moreover, there is no pending
appeal in this matter. The Eighth Circuit denied Udoh’s appeal on September 28, 2020.
(Docket No. 82.) Udoh’s only pending appeal is in an immigration matter over which this
Court has no jurisdiction.
Accordingly, IT IS HEREBY ORDERED that Petitioner’s Emergency Motion for
Release Pending Appeal (Docket No. 87) is DENIED.
Dated:

October 29. 2020

sAPauCA. Magnuson
Paul A. Magnuson
United States District Court Judge

